<html>
<title> - ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 TIM RYAN, Ohio                     KEN CALVERT, California
 JOHN W. OLVER, Massachusetts       RODNEY ALEXANDER, Louisiana 
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado             
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Taunja Berquam, Robert Sherman, Joseph Levin,
            James Windle, and Casey Pearce, Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                             BUDGET HEARING

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 53-602                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma             
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

                              ----------                              --
--------

                                             Tuesday, May 12, 2009.

                        ARMY CORPS OF ENGINEERS

                               WITNESSES

TERRENCE ``ROCK'' SALT, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF THE 
    ARMY FOR CIVIL WORKS, DEPARTMENT OF THE ARMY
LIEUTENANT GENERAL VAN ANTWERP, CHIEF OF ENGINEERS, U.S. ARMY CORPS OF 
    ENGINEERS
MAJOR GENERAL MERDITH ``BO'' TEMPLE, DIRECTOR OF CIVIL WORKS, U.S. ARMY 
    CORPS OF ENGINEERS
GARY A. LOEW, CHIEF, CIVIL WORKS PROGRAMS INTEGRATION DIVISION, U.S. 
    ARMY CORPS OF ENGINEERS
    Mr. Visclosky. Gentlemen, we do have coffee up here and 
snacks. I am serious about that. So if you want, we are happy 
to do that.
    We have before us today the Principal Deputy Assistant 
Secretary of the Army for Civil Works, Terrence Salt; the Chief 
of Engineers, Lieutenant General Robert Van Antwerp; Major 
General Temple; and Mr. Gary Loew. They are here today to 
present the administration's budget request for the Corps of 
Engineers.
    I would like to point out that though there may be some 
questions that relate to the recently passed Recovery Act, this 
is a budget hearing and you will have the opportunity to come 
back and discuss your implementation of the Recovery Act after 
the subcommittee completes its work on the 2010 bill.
    I would also like to introduce Stacey Brown. Stacey has 
joined us for the year from Corps Headquarters, and we are very 
glad to have her here. She has certainly helped to raise the 
intellectual quotient of the subcommittee, not the subcommittee 
staff, as a Tufts University graduate, and again has already 
been doing excellent work for us and very happy she is here.
    The fiscal year 2010 budget request for the Army Corps of 
Engineers Civil Works program totals $5.1 billion, a reduction 
of $277 million from the fiscal year 2009 enacted level. Beyond 
top line funding levels and requested bill language, it has 
been challenging to analyze the Corps' budget since we have not 
yet received the project allocations or justifications. I 
realize that this is a trying time; however, the subcommittee 
will be asked to execute its responsibilities in something that 
resembles a normal year's schedule, and it is now May 12th. The 
administration is making the timeline very challenging.
    While the total budget request for the Corps of Engineers 
is more robust than others that have come before this 
subcommittee, I was hoping myself for a greater change in this 
administration, in the way it views the Army Corps of Engineers 
and the priority it places on the Nation's water 
infrastructure. The first action of this administration related 
to the Corps was to leave it out of any request for Recovery 
Act funding.
    Once again, Congress was relied upon to provide funding to 
improve flood control, navigation, and other water resource 
projects in our countries. The projects overseen by the Corps 
of Engineers provides exactly the types of jobs this country 
needs, reasonable wages earned while constructing something 
concrete that provides a long-term investment in our economy. 
The fact that the administration did not request funds was 
abjectly disappointing to me.
    There are many challenges as we assess what investments we 
should make in the area of water resources. I will take the 
time today to highlight just two, navigation and hydropower. As 
our national discussion on energy and carbon emissions moves 
forward, the carbon footprint of different transportation modes 
and the methods by which generate our electricity must by 
considered.
    Our national waterways are an efficient mode of 
transportation from both a carbon emission and fuel consumption 
standpoint. While we might not agree on exactly which 
navigation channels and harbors provide the best investment, I 
believe we can agree on a subset that is economically important 
for the Nation and the regions in which they reside. The 
navigation business line needs the administration's attention 
in many areas. The first and foremost is the Inland Waterways 
Trust Fund. If the revenue stream is not addressed, the level 
of investment must be adjusted to the available resources. This 
will mean difficult political choices as projects are suspended 
until resources become available.
    Deep draft navigation requires attention on several fronts. 
We are continuing the ``race to the bottom'' as post-Panamax 
vessels become more prevalent in the industry. This requires a 
national examination of what ports should be deepened to 
accommodate these vessels and the economic impact of those 
investments. The Harbor Maintenance Trust Fund has significant 
balances that should be addressed and it is time to revisit 
least cost dredge material disposal as a policy.
    Energy security and issues of global climate change are 
increasingly important to the decisions made regarding 
infrastructure investment. Hydropower improvements at existing 
facilities provide a reliable, efficient, domestic, emission-
free resource that is renewable. Hydropower plants have, 
without question, changed the natural river environment. 
However, with some exceptions the environmental damages of 
existing dams are largely complete, and further investment in 
modern turbines can have the benefit of improving existing 
water quality and fish passage issues in addition to increasing 
generation efficiency and capacity.
    The Corps must continue to focus on minimizing the negative 
impacts to the environment while maximizing the use of existing 
infrastructure. Hydropower benefits also include the 
flexibility to meet peak power demands, the displacement of 
additional thermal plants, and ancillary services such as 
voltage stability of the transmission system and system 
restoration after blackouts.
    As we as a Nation decide what we should invest in, we must 
not lose sight of an issue that has been of interest to the 
subcommittee for some time: Cost estimating and project 
management. I have often said of energy policy that you can 
have the best energy policy in the world, but without solid 
management and oversight of the execution, you will never 
realize the fruits of that policy. We continue to expect the 
Corps to work towards a more systemic and realistic mode of 
doing business and would like to see a real 5-year plan one day 
called the Hobson plan that gives an accurate assessment of the 
investment necessary to meet the Nation's water resource 
challenges.
    Mr. Salt, I will be interested today in hearing your 
defense of choices made in the Department's of fiscal year 2010 
budget request, fiscal year 2009 execution, and overall Corps 
management.
    I would also ask you to ensure that the hearing record, the 
questions for the record, and any supporting information 
requested by the subcommittee are cleared through the Corps, 
your office, and the Office of Management and Budget and 
delivered in final form to the subcommittee no later than 4 
weeks from the time you receive them, because our time 
obviously is very, very tight this year.
    Given that we do not yet have budget justifications, I 
would indicate to all the members who have additional questions 
for the record, they will have 1 week from the time that 
justifications are made available to the public to provide them 
to the subcommittee office.
    But with those opening comments, I would like to yield to 
my ranking member and friend, Mr. Frelinghuysen, for any 
opening comments that he would like to make.
    Mr. Frelinghuysen. Thank you, Mr. Chairman, I would like to 
add my personal welcome to our witnesses. We are facing an 
extraordinary compressed schedule this year and we appreciate 
having you here to present a budget and answer our questions.
    Before we move to your Civil Works budget submission, I 
want to commend the Corps for its work both here home and 
abroad. The Army Corps, both military and civilian, is doing 
incredible work in Iraq and Afghanistan, building bridges and 
roads, constructing sewage facilities, assuring water supplies, 
continuing to patch a neglected electrical systems if in fact 
they exist in some places, replacing mud classrooms with 
permanent school and more. With the increased troop levels and 
increased focus on Afghanistan, the Army Corps workload in 
Afghanistan will increase substantially.
    I know you are involved in the design and construction of 
new bases. Assistant Secretary Salt, Mr. Salt, and Lieutenant 
General Van Antwerp, I hope you will extend our committee's 
sincere thanks to the men and women both in uniform and 
civilian who do some extraordinary work under some difficult 
and dangerous circumstances each and every day.
    Gentlemen, I can't be more supportive of the chairman's 
comments regarding the need for more budget specifics. Our 
country is facing huge economic issues and challenges. The 
energy and water portfolio won't be and shouldn't be spared 
tough scrutiny to ensure we are putting limited dollars in the 
highest priority projects. Unfortunately, the public will 
suffer as a result of what appears to be a lack of 
transparency. This committee will receive, I am confident, the 
information from the Corps before we pass a bill. We need that 
information.
    That said, at $5.1 billion the administration's fiscal year 
2000 budget request is $300 million below the fiscal year 2009 
appropriations. This is the $300 million cut. It is oddly a 
positive sign. This subcommittee has long recognized the 
importance of your work and has been fighting for years to 
ensure that you receive adequate funding. That position often 
puts us at odds with the previous administration which 
regularly cut the water request in favor of energy projects. A 
$300 million cut is a vast improvement over what we have seen 
previously.
    The Army Corps has always been a worthy steward of our 
water and navigation infrastructure. The taxpayers' dollars 
must be spent wisely in an economic and efficient manner. More 
than ever there is an immediacy to prioritize projects, finish 
one and move on to others. I know in fact my colleagues on this 
subcommittee in Congress would agree that these important 
ongoing projects must be funded to completion.
    I have greater confidence the Corps is spending its budget 
properly because of the close communication we have had, and I 
appreciate that close communication. I was pleased that we 
could support $4.6 billion for the Corps in recently passed 
Recovery Act legislation. I thought we could have gone higher 
because I think you know there is a huge backlog of authorized 
projects. But I did grow concerned as I saw the role OMB began 
to play in directing your work. What was once a cooperative 
process became a black box with a bureaucrat at OMB at the 
center and not you as Corps professionals. I hope this is not a 
pattern that will continue, but I fear the current delay of 
your budget request may be a leading indicator, a negative one.
    I am pleased to see that someone had the wisdom to include 
beach nourishment and renourishment projects in the budget 
request. Let me note that I don't represent in my district a 
speck of the New Jersey shoreline, but I do recognize that the 
shore on the East Coast and the West Coast are vital to the 
economic well-being of those states. For years Congress has 
funded these projects because of the vital economic development 
and the ecosystem restoration benefits they offer. These 
projects are successful partnerships. I underline partnerships 
because the Federal Government and local government sponsors 
make serious financial commitments to see these projects 
through. I guess someone over there finally heard the call.
    I would like to commend the Corps for its investment in 
harbor deepening projects around the country. As you know, 
ports are vitally important to the economic health of our 
country and are tied to national security. In my neck of the 
woods, the Port of New York and New Jersey Harbor Deepening 
Project has been recognized for many years as a national 
priority. I live in a part of the world where we don't forget 
9/11, and keeping that port open for business I think has a lot 
to do with our national security and the protection of our 
people.
    Once I see your project specifics I will be looking to 
ensure that ongoing projects are being funded to completion. We 
must continue to clear the backlogs. Let's be candid and blunt, 
there are also many projects in the queue. Lots of promises to 
lots of communities made by Congress and the Corps alike that 
wouldn't see meaningful funding any time soon until we make 
good on our existing commitments. Ensuring that the Corps makes 
good on its current commitments and doesn't raise expectations 
because of new projects will be a personal priority for me and 
one that I know is shared by many on both sides of the aisle in 
this committee and outside this committee.
    Mr. Chairman, we have a busy schedule in front of us, and I 
look forward to hearing the testimony from our witnesses, thank 
you very much.
    Mr. Visclosky. Thank you very much, and I would associate 
myself with Mr. Frelinghuysen's observations about beaches. I 
do not have any Jersey shoreline myself, but I do have a beach 
in front of Mount Baldy, which happens to be the highest 
topographical feature on the southern shoreline of Lake 
Michigan, I am told deposited there over 10,000 years ago, and 
if allowed to erode away will be lost forever. There is value 
to these beach nourishment programs.
    With that, Secretary Salt, I would recognize you and then 
General Van Antwerp. That would be terrific, and your entire 
statements will be entered into the record.
    Mr. Salt. Sir, if I could, I wanted to----
    Mr. Frelinghuysen. Is your mike on or move it closer?
    Mr. Salt. Sir, I was last in the Army in 1996 and frankly 
as I came to this position I was not prepared for the tasks 
that we have given to our Army in the missions we have given 
them. I couldn't agree more with your comments. My deep respect 
for all those serving our country in uniform, civilians, active 
and reserve. The tasks they are performing for us is something 
I didn't appreciate. I don't think very many of us really do. I 
was so pleased that you made those comments and I couldn't 
agree more. I am very proud to be here on behalf of the United 
States Army.
    Chairman Visclosky, Congressman Frelinghuysen, 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the President's budget for the Civil 
Works Program of the Army Corps of Engineers for fiscal year 
2010.
    In developing this budget we have sought to achieve four 
principal objectives: To focus construction funds on those 
investments that provide the best return from a national 
perspective and achieving economic, environmental and public 
safety objectives; to support the safe and reliable operation 
and maintenance of key existing water resource infrastructure; 
to improve Corps project planning and program performance; and 
to advance aquatic ecosystem restoration efforts, including the 
restoration of Louisiana's coastal wetlands and Florida's 
Everglades.
    The budget provides funding for the development and 
restoration of the Nation's water and related resources within 
the three main Civil Works program areas: Commercial 
navigation, flood and coastal storm damage reduction, and 
aquatic ecosystem restoration. Additionally, the budget 
supports hydropower, recreation, environmental stewardship, 
water supply services at existing water resource projects owned 
or operated by the Corps, protection of the Nation's regulated 
waters and wetlands, the cleanup of sites contaminated as a 
result of the Nation's early efforts to develop atomic weapons, 
and emergency preparedness and training.
    The total discretionary funding of $5.125 billion in the 
fiscal year 2010 budget is the highest amount ever requested by 
a President for the Civil Works Program. The budget proposes 
enactment of legislation to authorize a lock usage fee which 
would over time replace the diesel fuel tax now paid by most 
commercial users of the inland and intercoastal waterways. This 
proposed legislation will address the declining balance in the 
Inland Waterways Trust Fund, which affects the government's 
ability to finance the non-Federal portion of the Federal 
capital investment in these waterways. It will do so in a way 
that improves economic efficiency compared to the existing fuel 
tax by more closely aligning the cost of those who use Corps 
locks for commerce with the capital costs that the Corps incurs 
on their behalf. The administration stands ready to work with 
the Congress and stakeholders to find a long-term solution to 
this issue.
    The fiscal year 2010 budget continues its Civil Works 
Program's commitment to a performance-based approach to 
budgeting. The Army applied objective performance guidelines to 
focus construction funds on those investments within the three 
main missions of the Corps that provide the best return from a 
national perspective in achieving economic, environmental, and 
public safety objectives.
    Similarly, the Army used objective performance criteria to 
allocate O&M funds in the fiscal year 2010 budget. The O&M 
criteria considered both the condition of the project and the 
potential consequences for project performance if the O&M 
activity were not undertaken in fiscal year 2010.
    In fiscal year 2010, the Corps will focus efforts on 
developing new strategies along with other Federal agencies and 
non-Federal project partners to better manage, protect, and 
restore the Nation's water and related land resource, including 
flood plains, flood prone areas, and related ecosystems.
    Sir, the administration has made rebuilding America's 
infrastructure a priority. Through resources provided for the 
Army Civil Works Program in the President's budget for fiscal 
year 2010, the Corps can help achieve this objective. Mr. 
Chairman, I am proud to support the fiscal year 2010 budget for 
the Army Civil Works Program. I look forward to working with 
this subcommittee and to your support of the President's budget 
proposals.
    Sir, thank you.
    [The statement of Mr. Salt follows:]

    [GRAPHIC] [TIFF OMITTED] T3602A.001
    
    [GRAPHIC] [TIFF OMITTED] T3602A.002
    
    [GRAPHIC] [TIFF OMITTED] T3602A.003
    
    [GRAPHIC] [TIFF OMITTED] T3602A.004
    
    [GRAPHIC] [TIFF OMITTED] T3602A.005
    
    Mr. Visclosky. Thank you very much.
    General.
    General Van Antwerp. Chairman Visclosky, Ranking Member 
Frelinghuysen, it is just a real pleasure to be here today and 
I am honored to testify on the 2010 budget. If you would permit 
me, because we are a people centered organization, I would like 
to introduce our commanders. These are the people that get it 
done. I will start over here on your right. On the far right is 
Mark Yenter. Mark, stand there. Mark is the Commander of the 
Pacific Ocean Division stationed out in Hawaii and has Alaska 
as one of the districts, Far East District, very huge 
territory.
    Mr. Simpson. That is a tough duty, isn't it?
    General Van Antwerp. His travel schedule, though, he has 
got the mileage.
    Next to him is Todd Semonite. Todd commanded the North 
Atlantic Division up until about a week ago, and now commands 
the South Atlantic Division out of Atlanta, Georgia and has the 
southeast portion of the United States, Puerto Rico, and South 
America.
    This is Colonel Janice Dombi. She is out in the South 
Pacific Division out in San Francisco and does a great job out 
there for us. The former commander has deployed to Afghanistan. 
His name is John McMahon. And he's working on those seven bases 
we are trying to build in Afghanistan.
    This is Ken Cox, Brigadier General Ken Cox. He is in the 
Southwest Division down in the Texas area and he is doing great 
and wonderful things for us. One of his major projects this 
past year is building the fence along the Mexican-U.S. border.
    And then over here, this is Brigadier General Bill Rapp. He 
is with the Northwestern Division. Bill deals with fish and 
Native Americans and all kind of wonderful things. And he is 
just doing a terrific job for us.
    This is Mike Walsh. Mike Walsh is the Commander of the 
Mississippi Valley Division, and he has what we call the long 
skinny division, all the way from Canada to New Orleans, where 
the great Mississippi goes out into the Gulf.
    And this is Colonel Duke DeLuca. Duke just took over for 
Todd Semonite in the North Atlantic Division, and he will do a 
great job. Just came out of theater, so he has the latest and 
greatest there, Commander of the 20th Engineer Brigade.
    And finally Mike White is sitting in for Brigadier General 
John Peabody, who had a hip replacement this weekend. He would 
have hobbled here had we ordered him to, but we gave him some 
grace, and so Mike is here to represent.
    As Mr. Salt mentioned, our fiscal year 2010 Civil Works 
budget is a performance-based budget; that is, it reflects the 
highest economic and environmental returns for the Nation's 
investment and also addresses significant risk to human safety.
    I just want to mention quickly the American Recovery and 
Reinvestment Act just so you will know our timelines. First of 
all, the total dollar amount was $4.6 billion in the Civil 
Works portion, about $2.075 billion in O&M and $2 billion in 
construction. In O&M, we have upwards of 700 work packages that 
we will, by the end of this fiscal year, have obligated that 
$2.075 billion and we expect to be completed on all of those 
projects by the summer of 2010. So it is exciting. We have 
already, incidentally, obligated $61 million against this 
Recovery Act. We only got it really about a week ago. So we are 
on the way, and we are really looking forward to what it will 
do to create jobs and do its intent.
    In the construction account, we will have two-thirds of it 
obligated by the end of fiscal year 2009 and we will have 
completed about two-thirds of it by fiscal year 2010. Some of 
the projects go into fiscal year 2011 and fiscal year 2012.
    Just when you add it all together, this is a historic 
workload for the Corps. If you add our military programs in 
with the Civil Works, we will have on the books obligated about 
$40 billion this year, and probably one of the questions is 
going to be how will you get that done? We have implemented 
some great new tools, we have worked with the commanders here, 
we are using regional systems. If you look at one particular 
place down in New Orleans, every district in the Mississippi 
Valley Division has a piece of action down there. If you look 
at the Washington Capital Region, down at Fort Belvoir, 
Virginia, every district in the North Atlantic Division has a 
mission down there. So this is the way we are going to go get 
it done, we are going to go regional, we are going to use all 
of our capacity, and we promise that we will deliver.
    Finally, just because you brought it up, I would like to 
just talk about the war in Iraq and Afghanistan just for a 
second if you will permit me. We have had about 10,000 Corps 
employees, civilians, over the years we have been in Iraq and 
Afghanistan who have deployed out of the Corps of Engineers, 
our great civilian workforce. It is really an amazing thing. 
Right now we have about a thousand civilians deployed.
    We are changing some of the emphasis from Iraq to 
Afghanistan. The work in Iraq is frankly tailing off. We 
expected more work that was host nation funded that hasn't come 
in, I think partly because they put their budget together when 
oil was $140 a barrel. So we have seen that tail off. We expect 
by next March to be down to one district in Iraq and a number 
of large area offices. Right now we have three districts and a 
division headquarters. So we are downsizing there.
    At the same time Afghanistan workload is doubling this 
year. It has gone from $1.2 billion to over $2.6 billion. And 
so we are starting up a second district in Afghanistan and we 
will put in a deployable command post from one of our theater 
engineer commands in there. So one theater is decreasing, the 
other theater growing. But it is very exciting work, and we are 
going to be there for some time in Afghanistan. We are building 
and helping design seven bases to take the new soldiers coming 
in.
    So Mr. Chairman, that concludes my statement, and I look 
forward to any of your questions.
    [The statement of General Van Antwerp follows:]

    [GRAPHIC] [TIFF OMITTED] T3602A.006
    
    [GRAPHIC] [TIFF OMITTED] T3602A.007
    
    [GRAPHIC] [TIFF OMITTED] T3602A.008
    
    [GRAPHIC] [TIFF OMITTED] T3602A.009
    
    Mr. Visclosky. Mr. Salt and General, thank you very much. 
And it is my understanding under protocol, Mr. Salt, that I am 
not supposed to call you Secretary, and I am sure you don't 
care and I don't care. I just don't want anybody to think I am 
trying to diminish your position by calling you Mr. and not 
Secretary.
    Mr. Salt. Sir, I am honored to be here.
    Mr. Visclosky. As we are all are.
    Mr. Salt. You can call me Rock if you want.
    Mr. Visclosky. Let me start with two questions and then I 
will turn to my ranking member.
    Mr. Salt, the budget request includes a substantial cut to 
the construction in Mississippi River and Tributaries Account 
given the need for water resource infrastructure that addresses 
changing needs and circumstances. How would you justify the 
reduction?
    Mr. Salt. As I mentioned in my testimony, sir, we developed 
a set of performance criteria that we applied essentially the 
same way nationally as we did to the Mississippi River and 
Tributaries Program. So the way the program becomes sorted out 
is basically based on various criteria for O&M for that part of 
the MR&T and the benefit-cost ratio for the construction part 
of the program.
    Mr. Visclosky. That would lead to my second question, and 
you do mention in your testimony performance criteria to guide 
your recommendations, objective performance criteria. When you 
talk about O&M, you talk about the condition of the project and 
the potential consequences for project performance, you 
mentioned cost-benefit ratio. The other question I would have 
and then again I would turn to my ranking member, again, we 
don't have the benefit yet of all the budget justifications. 
Could you in some detail enumerate the criteria? Were the cost-
benefit ratios that you looked at, were the thresholds the same 
for each category within Corps projects? And when we talk about 
condition of the project, is there some valuation you attach, 
does it vary from O&M to construction?
    Mr. Salt. Sir, the criteria were different for 
construction. Generally the construction account was based on a 
benefit-to-cost ratio, and I am going to say we used the same 
criteria for both, and I will verify that just to ensure I am 
not saying something that is not accurate. But the O&M, on the 
other hand, the Corps has a pretty impressive risk-based 
approach, perhaps the Chief or General Temple would want to 
talk about, to look at a number of factors that they then use 
as the basis for prioritizing their O&M.
    Mr. Visclosky. Sure, that would be fine.
    General Van Antwerp. Basically, we look at cost-benefit 
ratio as one aspect, but life safety and human health is 
another one. And then the third category is environmental 
restoration and mitigation. What we have done in recent years 
is, survey all of our projects--well, not all of them, we have 
some to go yet. We are right in the middle of surveying levees, 
but there are also our locks and dams and all the things that 
require O&M work. We need a lot of O&M money and we are getting 
a good package of it in the Recovery Act, and that is very 
helpful, because we are able to get at some of the things we 
haven't been able to get at for a long time. Are there more 
projects? Yes, there are more projects over time, but I think 
we have a very good start at it this year, in combination with 
what we expect to get in the 2010 budget and what we have in 
the Recovery Act.
    Mr. Visclosky. And in years past there has been some 
controversy about, if you would, loss of life versus property 
values, and my sense is the Corps did address some of that 
formula consideration a couple of years ago, if I am correct.
    General Van Antwerp. That is correct. We look at both 
Generally when a project is formulated we consider national 
economic development, so the benefit-cost ratio really does not 
include a lot of local aspects, but in the safety area it does.
    Mr. Visclosky. You compensate for that.
    General Van Antwerp. Right.
    Mr. Salt. As far as policy guidance, if there are life and 
public safety issues with a project, that goes ahead of the 
economic development aspects. Those are priorities and we would 
move those ahead in the list.
    Mr. Visclosky. Okay.
    Gentlemen, thank you very much. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Chairman, before I yield to Mr. 
Simpson, who is a keynote speaker at some event, actually we 
are trying to get him out of the committee hearing as quickly 
as possible. But before I yield to him, in all seriousness, I 
would like to put a plea in to your division commander. We have 
a lot of young people coming back from Iraq and Afghanistan, 
and I often think about a lot of the contracts that are let 
here, I assume because some of them are so darn large you can't 
get a veteran-owned business, but I want to put an oar in the 
water and make a plea to make sure if there are contractors, 
that they are out there, you know, providing jobs for some of 
these young people coming back. I know because I visit my 
installation, Army installation, I visit VA hospitals. There 
are a lot of veterans looking for work and certainly I think 
they ought to be at the top. If there is a way to do it legally 
and appropriately, I would hope that--I am sure you have that 
as a concern.
    I yield to Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. I appreciate you yielding. It is a 
great deal day for my chairman and ranking member if I can't 
make it to a hearing. So I appreciate your yielding and giving 
me the time here.
    Let me ask a couple of questions, Columbia River Channel 
Deepening Project. Last year the committee fully funded your 
budget request for that, and it is my understanding that 25 
million is needed to complete that project. Is that in this 
year's budget? Or is it being funded by the Recovery Act funds 
that were being done? Bring me up to date on where that is.
    Mr. Salt. Sir, that project is a priority project. I am not 
allowed to specifically answer that question, but I will just 
tell you it is a priority project that I am certain that we 
will resolve satisfactorily.
    Mr. Simpson. I find that a little bizarre.
    Mr. Visclosky. Can I ask why?
    Mr. Simpson. Yeah. We are the committee that funds these 
things. We put the money out there and we need the information. 
Of course we would like to know.
    Mr. Salt. That project was not on the Recovery Act list 
that was posted a few weeks ago. I can't talk about what is in 
the 2010 budget. That hasn't been released yet by OMB, so I 
can't talk about the 2010 budget.
    There is an advantage to moving it up in the list--not 
moving it up, it is right near the line in the list on the 
criteria we used for the Recovery Act. Obviously were we to 
move it up in the line, move the line down to pick it up in the 
Recovery Act, that could have an implication in the 2010 budget 
that we would then have to account for. So as we work through 
the proper way to carry out an important project such as the 
Columbia River Project, we have to make sure that we are----
    Mr. Simpson. Do we plan on finishing that this year?
    Mr. Salt. Yes, sir.
    Mr. Simpson. One way or the other?
    Mr. Salt. Yes, sir.
    Mr. Simpson. Well, at least I know something more than I 
did beforehand. I want to ask this question, but I don't know 
if there is an answer for it. I am increasingly frustrated with 
O&M, and not just this administration, every administration. 
The impact they have in policy by their decisions that are 
budgetary decisions. And I get frustrated when people can't 
come up and talk to us because OMB says they can't. And that to 
me is a little ridiculous. I get the feeling a lot of times a 
lot of agencies would like to talk to us and tell us what is 
going on and stuff, but they are restrained by that office down 
there. I am going to go have some legislation to address that. 
I don't know if they are going to like it, but I am going to 
have some legislation to address it.
    Couple of other questions. Last year the subcommittee 
worked hard to determine the division of responsibility in the 
Everglades with our colleagues on the Interior Committee. And 
since I am the ranking member on the Interior Committee, is 
there a new plan under development for the Everglades 
reconstruction and rehabilitation? What is the stage of that 
plan, if there is, and what role is the Corps playing? And it 
seems like I already know all the answers to those if I ask 
this, why after the Appropriations Committee moved the modified 
water delivery project to the Interior subcommittee is this 
project element contained in the Corps budget request? The 
intent of moving that last year was to draw a clear line of 
authority for this element of the Everglades and to continue 
down that path, not to return to the split between the 
agencies.
    Mr. Salt. Sir, the Modified Water Delivery project is a 
special case. I am going to let the Chief and General Temple 
answer these questions, but I know a lot about that project. So 
I will take the privilege to deal with that. Up until a few 
months ago I was a senior official in the Department of the 
Interior, and it is the Department of Interior's highest 
Everglades priority. It is important for the Corps of Engineers 
as well.
    The authorization for that was very open as to how to go 
about it and we have gone through a number of budget policy 
recommendations for how best to do that. I think the basic 
issue right now is that with the existing carryover funding 
there is essentially enough funds to handle this year's 
requirements. The policy call I think is a carryover from 
executive branch policy. I don't honestly think we spent a lot 
of time reviewing that particular project, perhaps not as much 
as we should. But it turned out the way it did in the budget--I 
guess I can't say that either.
    Mr. Simpson. We didn't hear it.
    Mr. Salt. With respect to that project, I think it is 
important. The way the split between Interior and the Army has 
been, is not helpful. We need to figure out a way to just get 
that funded and to move forward on that.
    With the rest of the Everglades program, I don't think 
there is any change in terms of budget policy.
    Mr. Visclosky. Would the gentleman yield?
    Mr. Simpson. Sure.
    Mr. Visclosky. So you are saying you think the Corps should 
have that responsibility, because we went through great pains 
with Interior last year to split that responsibility so there 
would be a clear line.
    Mr. Salt. No, sir, I did not mean to say that if I did. We 
certainly would support--I am not even sure I can say that. Let 
me say I personally agree with the decisions made last year to 
fund it out of the Interior appropriation on this particular 
project, and I will get back with----
    Mr. Visclosky. But it is in a Corps budget now?
    Mr. Salt. There is a small----
    Mr. Simpson. A small portion, theoretically.
    Mr. Salt. Yes, there is a very small part of it that is in 
the Corps budget this year.
    Mr. Simpson. I appreciate it. And I apologize for having to 
go to this, and hopefully if this doesn't take too long I will 
be back if I have some other questions. Otherwise I will submit 
them for the record. But let me say for the record also that I 
really appreciate what the Corps does in the 595 Rural Idaho 
Program, projects that you do in Idaho. Talking with local 
community leaders and stuff working with the Corps, they have 
nothing but high praise to say for the work that you have done. 
In fact, eventually I would like to get into some questions 
about the fact that we have come to rely on you more and more 
as project managers in the Department of Energy in terms of the 
waste treatment plant or the MOX facility and other things, and 
how that is working out for you shows a high degree of what 
this committee feels your capabilities are, and we appreciate 
that very much. So thank you.
    Mr. Visclosky. Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman. Mr. Salt, General Van 
Antwerp, Mr. Temple, Mr. Loew, thank you all for coming. We are 
grateful to all of you and all of the uniformed and civilian 
Corps employees here.
    I see in my other hat as chairman of the Military 
Construction Appropriation Subcommittee the tremendous work you 
do every day for our military, and this subcommittee sees what 
you do for our country in its economy, its flood control water 
supply, so many other purposes addressed by civilian Corps 
projects. I thank you for all of that.
    It seems to me the one thing that doesn't change in my 19 
years here is administrations come and go, Democrat and 
Republican, but somebody at OMB just refuses to adequately fund 
Corps budgets. There are so many needs out there. You know it, 
we know it. We won't ever try to embarrass you by asking you in 
public whether the administration budget proposal is adequate. 
I think we all know whether it is defined or not. There are an 
awful lot of unmet needs out there that should be high priority 
needs to be addressed. I am glad the Recovery Act addressed 
quite a few of those.
    I would like to ask for the record an issue we don't talk 
about much here. It is not maybe the top priority of Corps in 
terms of its responsibilities, but is it still correct that 
more Americans visit Army Corps parks each year than visit the 
entire National Park System?
    General Van Antwerp. Sir, I believe that is true. We had 
386 million visitor days last year.
    Mr. Edwards. Is there any way, General, to interpret that 
into different individuals? How many people actually visited?
    General Van Antwerp. Some of those are obviously repeat 
visitors. We will see if we can slice it that way.
    Mr. Edwards. I would like to say for the record that I 
think, Mr. Chairman, this is a vitally important part of the 
Corps' mission even though it doesn't rank up there in funding 
levels with flood control and other priorities, but to me the 
Army Corps parks are the American working families' parks. The 
families who cannot particularly in tough times afford to go to 
Yellowstone Park or get on a plane and fly to Cancun, they go 
to the local Army Corps park and that is their recreation, and 
I just would like to raise a profile of that role of the Corps 
and I would welcome--once you have the 2010 budget, I would 
welcome information on how recreation park funding compares to 
previous years and what are some of the unmet needs out there. 
It is just an area that kind of gets lost in the debate around 
here.
    Secondly, I would like to ask the question about what is 
the Corps' policy regarding ports being dredged to their 
authorized depths? Is it the policy to see that they are 
authorized to their depths or is the policy if we have the 
money we will do it; if we don't, we won't?
    Mr. Loew. Sir, our policy is to dredge all ports for which 
we are responsible to their authorized depth. However, you know 
funding is limited, so we have a basis of setting priorities 
for the ports that do get dredged based on the available 
funding, and primarily that is based on the economic benefits 
of the ports.
    Mr. Edwards. Okay.
    Mr. Loew. Before I leave that, sir, we do make exceptions 
for other ports; for instance, harbors of refuge where there 
are other military or Coast Guard facilities and for key 
recreational or commercial fisheries harbors.
    Mr. Edwards. How many ports are there today in the United 
States that are not dredged to their authorized depths?
    Mr. Loew. Probably about 700.
    Mr. Edwards. Seven hundred.
    Mr. Loew. Yes, sir.
    Mr. Edwards. How many ports are there in the United States?
    Mr. Loew. About 900.
    Mr. Edwards. So 7 out of 9 ports in the United States are 
not dredged to their authorized depths. Do you know what the 
Port of Brownsville is right now relative to its authorized 
depths?
    Mr. Loew. Sir, I think the Port of Brownsville is close to 
its authorized depths for all the main channels.
    Mr. Edwards. But not for some of the other----
    Mr. Loew. Not for at least some of the side channels, yes, 
sir.
    Mr. Edwards. There was money put in there in the Recovery 
Act for that?
    Mr. Loew. Yes, sir, that is correct.
    Mr. Edwards. How about the Port of Houston. It is one of 
the significant ports in our country in terms of tonnage coming 
in and out, exports and imports. Do you have any idea where we 
are?
    Mr. Loew. Yes, sir. Actually the Port of Houston fared very 
well in the fiscal year 2009 budget and they also got quite a 
bit of money in the Recovery Act. So much of that money will be 
used not only to dredge the port but also to begin to construct 
confined disposal areas which they need very much in order to 
maintain them in the future.
    Mr. Edwards. For the record and I will finish with this 
question, for the record could you say what the inefficiencies 
that are caused for our economy and for companies and 
industries when ports are not dredged at their authorized 
levels?
    Mr. Loew. Yes, sir, there are many inefficiencies. We have 
examples of losing business to other countries such as Mexico 
and Canada. There are tremendous inefficiencies in the Great 
Lakes, for instance, where ships have to light load, and it 
costs basically more per ship to move the material which 
eventually results in higher cost of steel. That is another 
example.
    Mr. Edwards. You hit the right button there.
    Mr. Loew. We have another example of higher cost of 
aluminum in Texas as well. So there are many examples, sir.
    General Van Antwerp. I would add one thing there. When the 
Panama Canal gets its depth in 2014, there is the need then to 
go deeper.
    Mr. Edwards. Thank you. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Chet, you primed the pump pretty well 
there.
    As I said in my opening remarks, I am pleased to see 
changes in the policy on beach nourishment and replenishment. 
Can you give us the administration's analysis behind that 
change? Why is that? I am pleased by it. Can you provide us 
with a rationale and how did you determine which projects to 
include and those not to include?
    Mr. Salt. Sir, I think when the President's budget is 
released it will reflect the kinds of policy choices that you 
are talking about. And while those decisions haven't been 
released yet, I would say the logical policy would be, or a 
logical policy would be to look at shore protection projects, 
beach projects in a similar way that we look at other 
protection sorts of projects, using the benefit-to-cost ratio 
as a way to assess the protected value of those projects, 
whether it be a new project or an existing project. I think an 
option would be for us to include a set of projects that would 
follow that logic and reasoning.
    Mr. Frelinghuysen. So to interpret what you said, an 
analysis will follow when the budget documents are received, a 
formal analysis?
    Mr. Salt. I think for budget decisions with respect to 
beach projects, a logical policy would follow the kind of 
policy principles that I have just described.
    Mr. Frelinghuysen. The Harbor Maintenance Trust Fund, I 
think we all know how it is derived. There is a balance 
expected of 5.34 billion at the close of fiscal year 2010. We 
have obviously a lot of harbors that are not dredged. What are 
you doing relative to the Harbor Maintenance Trust Fund in 
terms of its viability and increasing its viability?
    Mr. Salt. I would say----
    Mr. Frelinghuysen. Do we anticipate more resources towards 
this type of activity, towards----
    Mr. Salt. I think the trust fund, the Harbor Maintenance 
Trust Fund is in pretty good shape. And I will defer to the 
Chief or General Temple to talk about the particulars with 
respect to the proposed budget area.
    General Van Antwerp. The bottom line number for the Harbor 
Maintenance Trust Fund is $793 million. It has over $4 billion 
in it, I believe, in the Harbor Maintenance Trust Fund. Now the 
Inland Waterways Trust Fund----
    Mr. Frelinghuysen. The Inland has had the insolvency issue.
    General Van Antwerp. Right.
    Mr. Frelinghuysen. Will you address that?
    Mr. Salt. Sir, with the Inland Waterways Trust Fund, it is 
not generating enough income revenues to cover the high 
priority needs--I forget who mentioned it, but those certainly 
are very high priority needs. The President's budget proposes a 
new approach to the revenue and, as I said in my oral comments, 
I think this is an issue we have to resolve to provide for the 
non-budget part of that revenue so that we can deal with these 
high priority maintenance needs on the waterway system.
    Mr. Frelinghuysen. How are you working to build a consensus 
among the water user community?
    Mr. Salt. I guess I would like General Temple to--he is the 
head of the board.
    General Temple. The Inland Waterways Users Board meets on a 
quarterly basis and members of the board come from industry----
    Mr. Frelinghuysen. You have some relief because of the 
Recovery Act that we passed?
    General Temple. Yes, sir, that is true.
    Mr. Frelinghuysen. That is not going to go on forever.
    General Temple. Once the Recovery Act activities are 
complete, subject to pending legislation, we will be back in 
the same situation that you described in the beginning. In 
terms of building a consensus with the various inland waterway 
users association and most particularly the users board, we are 
working closely with them in order to build a consensus to 
address this requirement and to come up with a better way of 
deriving revenue so that we can maintain the infrastructure 
properly. And we are also looking further ahead into the future 
in terms of our requirements so that we can layout a better 
long-term capital plan.
    Mr. Frelinghuysen. How successful have you been working 
with the water user community?
    General Temple. It is my understanding that they intend to 
have a plan that will dovetail into this legislation by this 
coming fall in time for the fiscal year 2011 budget timeline, 
sir.
    Mr. Frelinghuysen. This is all about user fees here, right?
    General Temple. Yes, sir.
    Mr. Frelinghuysen. Or another creative way to address it.
    General Temple. Yes, sir. Yes, sir.
    Mr. Frelinghuysen. So you are looking at those ways?
    General Temple. They are.
    Mr. Frelinghuysen. The lines of communication are open?
    General Temple. They are.
    Mr. Frelinghuysen. Thank you, Mr Chairman.
    Mr. Visclosky. Before we leave this subject, I would point 
out, am I correct that you did not spend money out of the 
Inland Waterways Trust Fund you don't have, there wasn't an 
assumption in the budget you were going to be successful 
legislatively and then you put money in there that we might not 
end up having, and I would thank you for that. In the past we 
have had people come up and well, the bill is going to pass, 
the money is going to be there, and then when we markup the 
bill it is not. So I would appreciate in that instance a very 
honest budgeting. That is a big problem, but I would also 
associate myself with Mr. Frelinghuysen that I would encourage, 
and I think we all would, because we tried to keep things 
moving in 2009. We cannot do that in 2010, and we have tried to 
stress that to our colleagues, there is nobody left to help you 
now, you have got to work this out.
    Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman. First of all, let me 
thank all of you for great service to our country, and it is 
really good to see to see you again.
    One of the lessons of Katrina was that there were too many 
cooks in the kitchen; that is, too many entities were 
responsible for some of the critical levees. As a result, the 
construction maintenance standards varied, and no one really 
took responsibility for putting it all together.
    Following Katrina, the Corps was authorized to incorporate 
these critical non-Federal levees so that there is a solid, 
consistent wall. What lessons have we learned, and how do we 
apply them to the Mississippi River System? One project in my 
district, the Alamos, the Colorado, the levees along the Rio 
Grande River. And also let's take Iowa, for instance. What 
confidence do you have that the critical levees are protecting 
cities and towns, are working as a system. And thirdly, do you 
even know where all the levees are and who owns them?
    General Van Antwerp. Those are all great questions. First 
of all, we have learned a ton of lessons, and in one of your 
early questions, we are tying it all together down in New 
Orleans. Someone had to come and look at it all because the 
seams, those weak links, those were exposed when you have a 
major event. So this new levee system down there, all of those 
links will be linked together.
    Some of the lessons learned? There have been many. I will 
just list a couple of them. One is that you can't eliminate all 
the risk, I think we have always known that. The latest storms 
we had with Ike and Gustav had potential to be much higher than 
the 100-year storm. You can't eliminate the risk, but you can 
do a lot in addition to the structural part, and that is 
something that we learned. You have to have good evacuation 
plans, and you have to have some other floodproofing. You can 
put your house up on stilts and there are a lot of other things 
to do in addition to having a levee.
    One of the other things is that we really feel that we 
should discourage settlement in areas that would be better 
utilized as a floodplain and allowed to flood. I don't think we 
will ever be able to constrain all the water that falls on a 
parking lot and goes into a storm sewer, and we don't want to 
run them all into the river system. It would overwhelm the 
system.
    There are a lot of non-Federal levees out there. In fact, 
we only own 16 percent of the levees in the United States. 
There is a great quantity of levees out there that are actually 
providing some risk reduction, but a lot of those are 
agricultural levees or other types of levees, and they aren't 
part of systems.
    I think on the Mississippi River and its tributaries we 
have a much better handle on that. For all the feeders, the 
bigger rivers that come into the Mississippi, we found in the 
Midwest floods in Iowa and that area, they are really 
challenging because they are not built as a system.
    A lot of them are what we would call ring levees to protect 
a very specific area. And they aren't tied as to a larger 
system.
    One of the things we are also dealing with is climate 
change and what is the possibility, what is the influence of 
that on our projects in the future. We have a lot of studies 
going on to determine that.
    Mr. Salazar. Okay.
    One other thing, General. In Afghanistan I know that you 
are going to be building many facilities also. I think you are 
in charge of maybe building some of the roads in there.
    What are your biggest challenges that you see coming, and 
do you think there is adequate funding in this budget for the 
requirements?
    General Van Antwerp. Well, Afghanistan is a very 
challenging place. I have been there many, many times. We are 
working a road network; we have 53 different projects that we 
are working on, different stretches of the road. There is 
essentially one ring road that goes around the entire country 
and then all other roads go off of it, so you have to have that 
main artery. We are far from complete; it will take another 
several years to complete that. There is money in the budget to 
do that, and the projects are scheduled.
    The next part is getting the materials. The materials for 
Afghanistan come from everywhere but Afghanistan. They are not 
produced there because they can't, and so all of it has to be 
imported.
    In fact, we have a number of challenges in construction. 
Every day I get the reports of a hijacked convoy of vehicles 
bringing construction materials or local nationals that were 
kidnapped or something. This is a very, very tough environment.
    I guess on the final top line, the most challenging thing 
is really the security of the sites, to just have security. If 
you don't guard the site, what you have built yesterday will 
not be there today. So it is a very challenging environment.
    Mr. Salazar. And one final question specific to my 
district. Tamarisk eradication is one of your priorities in 
Colorado. And along the Colorado River and the other rivers of 
Colorado--it seems like they are still there, and you have been 
working on them for several years. I think Lincoln Davis and I 
might be able to hire a crew and go out there and slow them 
down a lot quicker. But what are the big obstacles you are 
facing to getting this job done?
    General Van Antwerp. I am not familiar. Is it a vegetation? 
I didn't catch the first part.
    Mr. Salazar. Yes, sir. These are trees that are foreign to 
the United States that came from the Middle East somewhere, and 
they have become an invasive species. And they are called--
``salt cedars'' is their nickname. But they are very thirsty 
trees, and they contaminate the soil with a lot of salt.
    General Van Antwerp. I am not real familiar with that, but 
I will certainly look into it.
    We can provide an answer for the record on that.
    Mr. Salazar. Thank you. I appreciate that. I yield back.
    [The information follows:]

    The Corps has the authority and capability to address Tamarisk 
(Salt Cedar) eradication in the State of Colorado under Section 206 of 
the Continuing Authorities Program (CAP). The two projects are: 
``Tamarisk Eradication, Colorado''; the next step would be to initiate 
a reconnaissance report and prepare a Feasibility Cost Sharing 
Agreement for a Detailed Project Report and ``Tamarisk Removal, 
Arkansas River, Colorado''; the next step would be to initiate the 
Design and Implementation phase of the project. The main obstacle to 
completing the two projects is the tremendous interest in, and 
subsequent nationwide competition for, limited funding for these 
popular aquatic ecosystem restoration projects.

    Mr. Visclosky. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. And thank you for the 
jerky today. This is in fact the healthiest committee I serve 
on.
    General, I don't know how long or how close you are to 
retirement, but you are either trying to wait me out, I don't 
know.
    General Van Antwerp. I am going for the longevity award. I 
am 2 years away, unless something happens.
    Mr. Rehberg. I bet I am still going to ask you a question 
about St. Mary's 2 years from now.
    General Van Antwerp. Fair enough.
    Mr. Rehberg. Are we getting any closer?
    And I clearly understand the mission, and the reason I 
respect and love the military so much is because you are given 
a mission and you like to accomplish the mission and you kind 
of hunker down and get it done. But this is one of the 
situations where, of course, the Bureau of Rec was not getting 
it done for us.
    Senator Baucus put in the water bill the authorization for 
the St. Mary's reconstruction to the Corps of Engineers. And I 
know it has created some heartache; and every appropriation 
cycle I ask the same question, Are you playing fairly in the 
sandbox with your colleagues over there?
    And thank you, Mr. Salazar, for asking the question about 
the dual responsibilities of Katrina, because that is something 
that frustrates us. We are frustrated, as well, when everybody 
starts doing this, pointing it off in differing directions. And 
I am just not getting a feeling from the military aspect, the 
mind-set of a military mind, of a ``can-do,'' ``let's get it 
done,'' ``we have got the responsibility now,'' ``we have got 
the authorization as a result of the water bill,'' ``you are 
not giving us the funding.''
    That is a fight that seems to be going on somewhere other 
than in the House Appropriations Committee, because we clearly 
get the fact that you now have the responsibility and we should 
be funding you. That seems to be something that is going on in 
Senate Appropriations.
    But are we getting any closer to you guys coming up with an 
agreement to fix it rather than--you know, it would be like 
watching Katrina and knowing it is going to happen and 
continually telling you the levees are going to fail, the 
levees are going to fail, the levees are going to fail, and 
when it fails you say, Whoa, jeez, why didn't you tell us?
    I am telling you, this is going to fail. And then you are 
going to get to come in and clean it up and you are going to 
get the funding to fix it. But we know it is failing now. Why 
can't we get to the point where we fix it before it fails?
    General Van Antwerp. We have talked about this project a 
lot in the last several days. I appreciate the question. I can 
tell you that we have a capability of $250,000. And if that 
money is appropriated, we would definitely jump on top of that 
and get it done.
    Mr. Rehberg. Mr. Chairman, does OMB ever have to actually 
come and sit and answer questions in this committee?
    I clearly understand what it is like. I was in the 
executive branch in Montana; and so I had a budget director, 
and we didn't want the budget director necessarily talking to 
legislators. That was always a convenient out.
    And this seems to be a particularly convenient out, and I 
am so sorry that you have to give those kinds of answers. I 
know it drives you crazy, because it is probably not the nature 
of your personality either. But to have to sit in front of a 
committee and say, I can't say, I wish I could.
    Mr. Salt. My comments, sir, were timing.
    Mr. Rehberg. I clearly understand. Plus, their priorities 
may be different than yours, and you don't know how they may--
unless, of course, you think they are going to just accept 
everything you have told them.
    Mr. Salt. We often have robust conversation about the 
priorities. At the end of the day, I think the budget that will 
be released is a good budget. I think it is based on good 
criteria. There are a number of issues that we are taking on to 
improve in future budgets--some of these long-standing 
executive branch policies that we are ready to think about.
    Mr. Rehberg. I guess the question I would ask the General 
is, is there a fund where money is available for St. Mary's 
that does not need to be appropriated by Congress?
    General Van Antwerp. I don't believe so, no, sir.
    Mr. Rehberg. Is there an interagency transfer that could 
occur between the Bureau of Rec and the Corps of Engineers 
without congressional authority?
    General Van Antwerp. I guess if they have the money 
appropriated, we could come up with a Memorandum of Agreement.
    Mr. Rehberg. The only time we appropriate money we call it 
an ``earmark,'' and we get chastised for it. If it was in the 
executive budget, it is not appropriated. The money is there 
for projects based upon need, and the administration and OMB 
make those priorities or those determinations. I don't get why 
we have to identify 250,000--I am sorry, but that is a rounding 
error in your business.
    You are telling me that you do not have the flexibility 
within your budget for $250,000? That is that tightly wound?
    Mr. Salt. Well, sir, as I understand this project, it is an 
old Bureau irrigation project that doesn't compete with the 
priority core missions and functions. I think from a 
prioritization standpoint of OMB and from us, that that is 
where this lies.
    Now, having said that, if Congress appropriates the funds, 
then we do it. But I think the short of it is that we are 
working off the priorities that we have been talking about 
here. And I think that is where this is.
    Mr. Rehberg. I guess I would go back to my prior question. 
There certainly seem to be experts within OMB that know 
something about energy and water appropriations, because 
oftentimes in our committee hearings we hear, Well, OMB is 
studying that; they are not giving it to somebody from Labor 
and Health and Human Services to study.
    Do they ever come before the committee and actually have to 
ask questions about their priorities?
    Mr. Visclosky. My recollection is that under two different 
Chairs I attended meetings with the Office of Management and 
Budget officials who have responsibility for the core portion. 
And in both instances they, OMB, were implored by the Chairs of 
this subcommittee--not me--to be, if you would, reasoned; and 
particularly under Mr. Hobson, that was his push for the 5-year 
plan and looking at systems, so that if we could show there was 
a real plan of work here that there would be some reciprocity, 
if you would.
    That has clearly not happened. It has been a bipartisan 
failure. As I think a number of members have said today and as 
I said in my opening statement, you want to stimulate the 
economy, you want to move goods and services, you want to 
protect lives and property, and there wasn't a penny that the 
administration proposed in the stimulus. So it has not been for 
lack of effort by the subcommittee or past Chair.
    Mr. Rehberg. And my message to them and to the committee 
never changes, and that is, when Congress makes a determination 
of an authorization that is passed by the House and the Senate 
and signed by the President, and then you never get any 
recognition of its being a priority, how much more can we make 
it a priority than having put it in the water bill and giving 
you the responsibility, even though it doesn't fall within the 
Corps mission.
    I just--I am perplexed. I don't know what to do anymore. 
Wait you out 2 more years. OMB, I can't wait them out, there is 
more them than me.
    All right. Thank you.
    Mr. Visclosky. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you. I want to talk about 
the Mississippi River and its tributaries.
    Before I ask you questions, I want to make a comment. We 
are in a huge debate today about an energy policy that will 
make us self-sustainable and save our climate. It seems that 
there is a whole lot more discussion on climate change or 
global warming than necessarily energy independence for the 
sake of economic security and national security. And so that 
debate rages on.
    I believe that economic security and national security are 
the two key components of us having an energy policy that makes 
us closer and closer to being energy independent and self-
sustainable. And so as I look at that charge that we have, I 
realize that back in the early 1950s, when we built an 
interstate system, that was national security. It became the 
economic core to the lifeblood that gave us just-in-time 
manufacturing for small rural communities like the one I 
represent and live in in Tennessee.
    And so I realize that--as we look at transportation and as 
we move goods and services, I believe that economic security 
and national security can continue to be better realized if we 
start using river traffic more and more and more. The Ohio, the 
Missouri, that come into Tennessee, the mighty Mississippi that 
goes down to the Gulf would basically transport probably 75 to 
80 percent of America's production, especially in agriculture. 
It would be within 100 miles of either of those rivers to where 
we could transport, move our exports--or even imports, if 
necessary--and take a lot of huge trucks off of the interstate 
and intrastate systems. And so, for me, I hope as we engage in 
the debate on an energy policy that we look at the resources we 
have in America.
    So I am somewhat disappointed when I hear that we are 
seeing less and less requested from the Mississippi River 
Valley and its tributaries that will provide to those ports, 
many that have been built along the Cumberland River and many 
built along the Tennessee River and the Ohio and the Missouri 
that it will provide an opportunity for those to be opened back 
up maybe. And so I am disappointed when I hear that there is 
potentially a reduction in funding to be sure that we maintain, 
rebuild or build structures that are necessary to keep river 
traffic flowing.
    So my question is this. I know that rail is owned by 
private entrepreneurs. The rivers are owned by America; the 
Corps of Engineers obviously has a responsibility of 
maintaining those. And so it is my hope that there will at 
least be some plan.
    And do you have a plan, where you can work with rail, as 
well as barge--the barges are basically owned by private 
entrepreneurs--and work more closely with those as a Corps of 
Engineers, as a government entity, with those two modes of 
transportation? That is one question. Is that in the plans?
    Secondly, we talk a lot about hydropower using the flow of 
the current in, say, the Mississippi River. How would that 
impact river traffic if, in fact, we looked at that as one of 
the sources of making energy?
    And thirdly, do you have an estimate of how much it would 
cost to completely rehab and rebuild or build the necessary 
infrastructure to keep these tributaries open to what I hope 
will be a huge increase in river traffic?
    General Van Antwerp. I will address those in order, if we 
can here.
    First of all, on the plan to work on what we would call the 
other transporters, so that we get the right intermodal and the 
right emphasis on our river systems, I think our river systems 
are a very strong player in the future in energy, as you said. 
We do have a number of forums. We are working with the various 
groups that represent entrepreneurs and others, so I would say 
that we have got the right forums to do this.
    I don't know that it can be a policy that is set by any one 
group. It really has to be a policy that our country wants. So 
I think that is a big part.
    I have talked to the Secretary of the Department of 
Transportation. I was a co-speaker at a luncheon. We talked a 
lot about navigation and the waterways.
    The second one----
    General Temple. And I was just going to add, sir, that the 
Committee on Marine Transportation System, which is sponsored 
by DOT and has members from throughout the government, to 
include the Coast Guard and U.S. Army Corps of Engineers, meet 
regularly to discuss how we can improve the intermodal aspects 
of your question there, sir; so we are looking at it.
    Mr. Davis. So we are doing some of that now?
    General Temple. Yes, sir.
    Mr. Davis. Maybe it needs to be intensified.
    General Van Antwerp. I think we could report back. We will 
get some details on timelines and some of the expectations.
    [The information follows:]

    The Corps is working with representatives of the Inland Waterway 
Users Board to identify a long term Capital Investment Strategy to 
assure reliability of the Nation's inland marine transportation system. 
The report is currently under development.
    The Committee on the Marine Transportation System (CMTS) is a 
Cabinet-level Committee comprised of the 18 Departments and independent 
agencies that have a stake in the marine transportation system. The 
Committee is chaired by the Secretary of Transportation. The CMTS 
drafted a National Strategy that was approved in July, 2008 to identify 
the needs of the marine transportation system (MTS), including the 
intermodal connections. The Corps of Engineers, in conjunction with the 
Volpe Center of DOT, is leading an inter-Departmental effort to draft 
an ``Assessment of the MTS'', including the infrastructure, economic, 
environmental, safety, security and institutional challenges that the 
system faces. The Assessment will be completed in early 2010 and will 
be used to inform prioritization of needs and future endeavors to 
improve the MTS.

    General Van Antwerp. The second question about the 
hydropower--and that is a very good one--I think we have huge 
potential. There are developments on the horizon, I think, for 
river-run hydro, for hydropower that takes advantage of sea 
level conditions with the tidal variations. So there is 
opportunity I think in the future to generate more.
    Now, will we build more hydropower plants with turbines? 
That is a huge expenditure. I think our part right now is to 
make sure we are doing the operation and maintenance of those 
facilities so that they can run at peak performance.
    Mr. Davis. And the third question was----
    General Temple. I am sorry, sir.
    We have over 70 FERC license requests for low-head 
hydropower hydrokinetic power associated with our various 
projects in the river systems. So as long as those particular 
projects don't have a negative impact on the primary purposes 
of our projects, we are happy to entertain those. And I suspect 
that we will see some approved here in the not-too-distant 
future.
    Mr. Davis. And the third one, do you have an estimate of 
the cost involved for the next decade of what it would take to 
actually bring our rivers up to what we need to handle, 
whatever loads of freight may be placed in those rivers?
    General Van Antwerp. I will tell you, we are definitely 
working on getting that number. General Walsh, he is the 
Mississippi River Division. Commander, and he is also the 
Chairman of the Mississippi River Commission; and so we are 
working to get that number of what it would take to really 
refurbish and maximize the use of the Mississippi River and 
Tributaries.
    Mr. Davis. To clarify, I do believe that we are having 
climate change or global warming. I have looked at the science 
and technology. There are some who may not. It is kind of like 
Galileo, his assistant asking one day, Why study the stars; 
they all look the same to me. And so I think that if we can 
move this debate from that being the issue to economic security 
and national security, we all become winners; and I think our 
river traffic gets a major part of that. Thank you.
    Mr. Visclosky. Thank you. Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman. A couple of 
questions, but I want to just make a comment first.
    I represent the area in Louisiana that--the Mississippi 
River borders my district from Arkansas down to Baton Rouge. 
And I want to thank you all for the way you have worked with 
our offices over the years. We have 1,100 miles of navigable 
river in the Fifth Congressional District. So many times we 
have called on you, and your response has been good, and we 
appreciate that.
    One question is, the levee districts are being asked to 
certify some levees that have been there for years and years, 
some constructed before there was such a thing as a levee 
district. And what I would like to avoid is having those of us 
that have levee districts in our congressional districts, we 
don't want the people whom we represent to be exposed--
landowners, homeowners, to be exposed to the liabilities of 
having to buy flood insurance when some have not ever bought or 
had to purchase flood insurance. And that is going to be a 
political nightmare that we will have to take the blame for and 
not the Corps of Engineers.
    So where are we with requiring levee districts that 
financially cannot afford to go out and finance the 
certification of those levees, again that were constructed 
prior to their existence? Where do we stand on that, and can we 
talk about it a little bit?
    General Temple. Well, the whole dam-levee safety issue, as 
you know, was highlighted by our experiences from a few years 
ago with the hurricanes in your area. And what we are doing is 
taking a holistic look at how we address dam and levee safety 
by entering into a pretty well organized inspection program for 
those facilities that we are responsible for, and also 
providing technical assistance to localities to include levee 
districts that have responsibility for certification of levees.
    So those are the tacks that we have taken to try and 
support local entities in the certification process. But 
certification is not a Corps responsibility; it is a local 
responsibility.
    Mr. Alexander. I need to understand certification. If some 
of those levees were constructed prior to their being a levee 
district, so they are now being told that certification is 
their responsibility when the levee was constructed before 
their existence, is that a law that Congress passed?
    General Temple. Sir, the way levees are certified at the 
local level requires either a study of the historic records or 
a technical assessment of the levee through soils testing and 
the like. Those are the techniques that are used, not only 
locally but at the State and Federal level, to determine the 
structural stability of levees and dams.
    Mr. Alexander. Well, I just see it as a political train 
wreck coming, and I would like for us to avoid that if 
possible.
    The second question is, we have eroding coastlines, of 
course, in the State of Louisiana and other places. And we know 
that those coastlines are not eroding--they didn't just start 
doing that, it is something that has gone on for years and 
years. But we dredge rivers, we build jetties, we build locks 
and dams and canals, so we deprive Mother Nature of 
replenishing that coastline with silt from the rivers.
    We now dredge, and we will blow the dredge material back 
into the river to go down the river a little ways and build up 
and then we will go dredge it a little bit more and then we 
will blow it back into the river. Soon it will drop off the 
continental shelf.
    Well, we are filling the Gulf up with material that we can 
use along the coastline. So when we look at benefit-to-cost 
ratios, how long can we afford to do that if we, in fact, know 
that that material could be deposited along the coastline and 
prevent the forces of Hurricane Katrina and others from 
encroaching on our Nation more than just the coastline?
    We know for a fact that those hurricanes are devastating 
areas now more so than they have done in the past simply 
because we have less coastline. So how long can we look at the 
benefit-to-cost ratio and say, well, we are going to do it the 
cheapest way?
    We don't need coastline going toward Cuba today; we need it 
along the Texas, Louisiana and Mississippi and Alabama coast.
    General Temple. Well, sir, certainly your observations are 
spot on with respect to beneficial use of dredge material and 
the sediment that flows down our rivers. You alluded to the 
current policy to dispose of dredge material in the least 
costly fashion, which sometimes is beneficial and other times 
is not.
    But we do have the capability in conjunction with sponsors 
to take care of the cost differential and moving that sediment 
to places where it might better be used. So we completely agree 
with you that beneficial use of sediment is important, and it 
is certainly very important along the Louisiana and Gulf Coast 
in general.
    Mr. Alexander. Thank you.
    Go back to the earlier question about certification. The 
Corps, the levees in the past have been certified by the Corps; 
is that correct?
    General Temple. For the levees that we are responsible for; 
that is correct. Often, once we build a levee system, we turn 
it over to local sponsors for long-term maintenance. So if we 
built the levee, we have the records to which the standards 
that levee was built when it was originally in place. And that 
is how we are able to help many of the local entities in 
establishing whether that levee is still certified or not.
    Mr. Alexander. So, again, it was an action of the Corps and 
not Congress that said the certification process now falls upon 
the soldiers of the levee districts?
    General Van Antwerp. There are a number of different types 
of levees. You have federally built and federally operated, and 
then you have the category that General Temple just cited that 
was federally built, but then turned over to a local sponsor. 
At that point it does become the local sponsor's requirement to 
maintain it and to certify it.
    What happened after Katrina was that we saw that there were 
levees that had subsided because of the foundation they were 
built on and a myriad of other things. So now we are going in 
and certifying.
    It is very possible that a levee that was built to standard 
back in the day is no longer to a certifiable standard and has 
to be fixed. That is the real hard thing here. Because people 
have never had to get insurance before. But now we are finding 
when we go and certify that levee, that it is noncertifiable in 
its current condition and needs some work to get it up to a 
standard. That is where it is going to be difficult.
    And a lot of those are no longer federally operated and 
maintained; they are operated by local boards.
    Mr. Alexander. Thank you.
    Mr. Visclosky. Before I recognize Mr. Calvert, if I could 
follow up on Mr. Alexander's questions on the dredge materials: 
General Temple, is that an ad hoc decision-making process with 
local sponsors on a case-by-case basis if there is a more 
costly possibility for the use of the materials, but one that 
is very beneficial?
    General Temple. I wouldn't characterize it as ad hoc, sir.
    What I would say is, we make an analysis of where the 
material might best be used, take a look at the cost, and if 
there is an opportunity to use the material in a different way 
or a different place and we can enter into a partnership 
agreement with appropriate sponsors that will help defray the 
cost differential in moving that material to where it can best 
be used, then that is what we do.
    Mr. Frelinghuysen. Would you yield, Mr. Chairman?
    So you are working on developing a national policy or is 
this something that is left to the different divisions to sort 
of negotiate?
    General Temple. I can't say that we have a national policy 
per se. But what I would say is that the guidance we give to 
all our commanders is pretty consistent along the lines I just 
described.
    Mr. Salt. Sir, the current national policy for water 
resources development is contained in the Principles and 
Guidelines that were last promulgated in 1983. In WRDA 2007, 
the Congress directed the Corps to take a new look at this 
national policy. And we are in the middle of doing that, and 
this year we should have the new draft of those policy 
guidelines out.
    The problem that we are sort of getting to and we have 
alluded to before is, under the old guidelines, the Corps 
proposed projects largely based on their national economic 
development benefits, their economic benefits, and there really 
wasn't a way to acknowledge as a project purpose some of the 
environmental or other purposes that you are starting to allude 
to.
    I think it is very important that we find a way to 
recognize and acknowledge these other sorts of benefits, so 
that right now the policy is, if it costs more than the 
benefit, the cost would have to be borne by the local sponsor. 
And that is the result of the way the projects were formulated 
and authorized by the Congress.
    I would hope we could come up with a way to better 
acknowledge and account for these other sorts of benefits so 
that the cost distribution would not come out the way that we 
are talking about, but would rather acknowledge the Federal 
interest in, in this case, these other sorts of purposes.
    Mr. Visclosky. And it is considered a betterment since the 
locals are picking up all the additional costs then?
    Mr. Salt. Currently.
    Mr. Visclosky. And you are working on----
    Mr. Salt. A set of policies that may require some 
additional authorizations to acknowledge some of these 
additional benefits. I don't want to get ahead of the 
administration or myself on any of that.
    But the point is, under our current national policy, we 
aren't counting for these other benefits as well as we need to 
be.
    Mr. Visclosky. And will that be in place do you anticipate 
before the 2011 submission?
    Mr. Salt. Yes, sir, I do.
    Mr. Visclosky. Okay. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. General, it is good 
to see you again. It was great seeing you back in Corona 
earlier this year to mark the completion, or partial 
completion, of the Prado Dam. As you know, it is an important 
project. It does a lot of downstream protection in southern 
California. Work still needs to be done.
    As you know, we have expended over $1 billion on this 
project so far, and recently a little more than $26 million 
came from the stimulus bill being allocated to construct Reach 
9 Phase II-B component of the Santa Ana River mainstream 
project.
    As you know, the operation of this dam, as it is designed, 
a release flow of 30,000 cubic feet per second, is contingent 
upon completing the Santa Ana mainstream interceptor line, 
known as the SARI Line, or completion of Reach 9. Until then 
you are only able to release as I understand it about no more 
than 4,000 cubic feet per second.
    Obviously, we need to get the Brine Line relocated and 
complete Reach 9 and do both as quickly as possible. And I am 
hoping that you are asking for the additional funding to 
complete Reach 9 Phase II-A.
    And since we don't have a budget to look at today, let me 
just ask you directly, does the Corps continue to believe 
completing Reach 9 is a top priority?
    General Van Antwerp. Yes, we do.
    Mr. Calvert. What funding level will you need in fiscal 
year 2010 to complete Reach 9 II-A?
    General Van Antwerp. We have a capability of $72 million.
    Mr. Calvert. On top of the $26 million and the $14 million 
that was in the omnibus bill?
    General Van Antwerp. In the Recovery Act.
    Mr. Calvert. Yes.
    General Van Antwerp. Yes. I am showing $27.5 million in the 
Recovery Act.
    Mr. Calvert. Yes, Mr. Salt.
    Mr. Salt. If I could ask General Van Antwerp to talk about 
capability.
    General Van Antwerp. When we talk about capability, it has 
to do with capability for a particular project. And I think you 
know that. So this has to be put in the context of the entire 
budget. And here is the statement.
    Because we could utilize additional funds up to a 
capability on any individual project, it has to have offsetting 
reductions in order to maintain the overall budgetary 
objectives.
    Because in each of our projects there is a certain 
capability, but that project is taken in isolation. If--for 
instance, if we said, Let's do all the projects to the 
capability, it would be more than we would be able to do.
    But in this particular project that is our capability.
    Mr. Calvert. Thank you, General.
    The other issue I would like to talk about briefly is the 
Bay-Delta levees. As you know, California is in the midst of a 
water crisis. The heart of California's water infrastructure is 
the Bay-Delta with more than 25 million Californians dependent 
upon the water that flows to the Delta as a water source, both 
the water source and the ecosystem; and it is being threatened 
on a number of fronts.
    I would like to talk briefly about what falls under the 
Corps' umbrella. And that, of course, is the condition of the 
1,100 miles of levees in the Delta.
    A quick quote, if the committee will indulge me: The Public 
Policy Institute of California describes a threat, quote, 
``Earthquakes are probably the greatest unavoidable threat to 
the Delta. Several authority investigators concluded that a 
major earthquake will likely cause a failure of many Delta 
islands simultaneously with a two-out-of-three chance of such 
an earthquake occurring within the next 30 years. Such failures 
would directly threaten water supplies and would affect 
thousands of roads, bridges, homes and businesses at the same 
time. The water supply cost of such an event are estimated to 
be in the tens of billions of dollars.''
    General, Mr. Salt, I would just like you to comment. Just 
like a 100-year flood, the question about a major earthquake in 
a delta is not a matter of if; it is just a matter of when.
    So could you update us with regard to the Delta levee 
stability program?
    General Van Antwerp. The current status is that the risk 
management study is complete, and we are reviewing the report 
and continue to coordinate the future activities. We are 
absolutely on track with what you were saying there and agree 
with your comments. We do have a capability of $3 million, $3.6 
to be exact, on this project.
    Mr. Calvert. How many levee projects are ready to go?
    General Van Antwerp. I would have to get that for the 
record, sir. I don't have that.
    [The information follows:]

    Planning efforts are currently underway on 48 CALFED levee 
stability projects. Based on the availability of funding, the Corps has 
prioritized several projects to move toward the design and construction 
phase during Fiscal Year (FY) 2010. These projects are as follows: 
Bethel Island Municipal Improvement District-Reclamation District 2028, 
Bacon Island-Reclamation District 2010, McCormack-Williamson Tract-
Reclamation District 1608, Lincoln Village West-Reclamation District 
2027, Mandeville Island-Reclamation District 554, Walnut Grove-
Reclamation District 900, West Sacramento-Reclamations District 404, 
and San Joaquin River Reclamation District. Some construction will 
likely occur in FY 2010. Pending available funding, significant 
construction could occur in FY 2011. Other projects will continue to 
proceed through planning as initial priority projects move into design 
and construction.

    Mr. Calvert. Is the Corps prioritizing the levees that 
secure the major population centers in the Delta and secure a 
water supply pathway?
    General Van Antwerp. Yes.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    General, the current capability, does that hold true in New 
Jersey and Indiana too?
    General Van Antwerp. Yes. That was overall; for the 
overall, absolutely.
    Mr. Visclosky. Just checking. On navigation we have had a 
number of questions and discussion about it.
    But I would also lend my voice that over the last 6 months 
we have had an extended conversation in Congress, the 
administration, about the economy, investments, and do not 
believe that our harbors and their role in the inland waterway 
transportation system has certainly been given enough 
attention, and would hope, as we proceed, that all of us, in 
our various capacities, try to change that circumstance by 
speaking out.
    Mr. Loew, in response to one of Mr. Edwards' questions, 
noted the 900 harbors, 700 of which may not necessarily--I 
won't hold you exactly to the figures--fully dredge. And I 
believe you had mentioned, Mr. Loew, that you have low-use 
channels and harbors that are not budgeted by the 
administration, but many can be critical from other 
perspectives, such as, literally, a fuel to power plants, 
safety issues, you mentioned Coast Guard in your response.
    Is the administration this year going to be reviewing that 
policy of Mr. Salt in examining some of these other needs in 
these lower-used harbors, and if so, will you have money to do 
that if you want to do that?
    Mr. Salt. Sir, I think that we have discussed looking at 
the broader questions of navigation, dealing with our backlog, 
dealing with the issues of confined disposal sites and dealing 
with the contaminated dredge materials. There is a host of 
moving parts for dealing with the navigation priorities that 
you have described, including the small--the lower-volume, 
smaller harbors and channels. And I think we will certainly 
look at all that and hope we will have some answers in our 
future budgets as we try and look at these issues.
    Mr. Visclosky. Again, in anticipation of 2011?
    Mr. Salt. That is our intent, yes, sir.
    Mr. Visclosky. On the Harbor Maintenance Trust Fund--and, 
again, it is not as though this has not been covered, but would 
point out that the balance is expected to be $5.34 billion at 
the close of fiscal year 2010; and again, many of the harbors 
are not dredged to the necessary widths and depths.
    The problem we find on the subcommittee is, if the 
administration does not ask for adequate funding out of that 
trust, there is intense pressure on all of us to provide the 
additional funds that obviously depend on what our allocation 
is has to come from somewhere else.
    Do you have any anticipation the administration is going to 
start filling that hole themselves, given the balance that 
exists in that trust fund?
    Mr. Salt. Sir, I have not had that conversation with others 
in the administration. So I will--perhaps we could answer that 
in the record.
    [The information follows:]

    The Corps of Engineers' overall O&M program is prioritized for all 
missions, such as navigation, flood damage reduction, and hydropower. 
Funding is budgeted for the diverse Civil Works missions based on the 
assigned priority. The balance in the HMTF is projected to be over $5 
billion at the end of FY 2010. If the Corps were to allocate more funds 
from the HMTF, there would be a necessary tradeoff among other O&M 
activities which would be adversely impacted if the funding for those 
activities were reduced to accommodate additional funding for HMTF 
funded activities.

    Mr. Visclosky. I would appreciate it. And again, I, one, 
think it is just sound policy from a host of reasons. It also 
would help us along the way here as far as the budget.
    And one other point, and would recognize Mr. Frelinghuysen. 
We have had some conversation about the Modified Water 
Deliveries Project in the Everglades. My understanding is that 
within the construction budget proposed by the administration 
the Everglades represents about 13 percent of all the money we 
are going to spend under the proposal. And as I also said in my 
opening statement, this isn't a hearing on the recovery 
package, but that package does have an application for the 
fiscal year 2010 project.
    In reviewing the course project allocations for the 
recovery bill, it has come to the subcommittee's attention that 
you proposed funding for a new activity I will characterize as 
a ``new start'' in the Everglades site one. This seems contrary 
to the legislative text in the recovery bill which states, and 
I am quoting from the bill, ``Funds provided shall only be used 
for programs, projects or activities that heretofore or 
hereafter receive funds.''
    It is my understanding attorneys at the Corps have 
acknowledged that this would be a new activity. How is it this 
project received $41 million?
    Mr. Salt. Certainly, in the previous budget submissions, it 
has been budget policy to consider that as part of a broad 
program. I think, as we discussed last week, that decision is 
currently under review, and we understand it is important to 
all of us to get a resolution of the issue you are raising so 
that we can make appropriate decisions.
    It was placed on the list because that was consistent with 
our previous policy. That is the question you are raising I 
think. We are reviewing that decision, and we hope to have an 
answer very soon.
    Mr. Visclosky. And I just want to again emphasize it is a 
very important matter to the subcommittee, because if we are 
talking about stimulating the economy and now we are dependent 
upon a 2010 appropriations, there is not as a lot of stimulus 
to the effect in 2009. And secondly, if it is left to hang out 
there, there obviously will be people looking at the 
subcommittee and say, But for you, because of a ball the 
administration got rolling, we are not going to get our money.
    So it has put all of us in a very difficult position, so we 
would want to stay in touch with you.
    Mr. Salt. As I said in my remarks, the Everglades is a very 
high priority to the Administration, and we are very 
appreciative of the support we have received from this 
committee in previous years.
    We certainly believe it is important to get some 
restoration on the ground. We have done a lot of studying and 
planning, and the Administration is very eager to actually have 
some restoration projects and achieve restoration outcomes.
    Mr. Visclosky. And I am not arguing the importance of the 
Everglades.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I know you are the resident expert in the Everglades. How 
much have we spent on the Everglades project to date? Sir, I 
know the figure 13 percent was entered into the record, and I 
just wondered, how much money have we spent down there? 
    Mr. Salt. Sir, I would break the Everglades program into 
two parts. A series of activities and projects that were 
authorized before 2000: these would include the Kissimmee River 
restoration projects, the Modified Water Deliveries Projects, a 
host of others, followed by the WRDA 2000, which contains the 
comprehensive Everglades restoration plan which built upon that 
with a whole series of components that we have just been 
talking about, some of which were part of WRDA 2007.
    We can get the precise numbers for the record.
    Mr. Frelinghuysen. I understand it is a national treasure. 
We have made substantial investments.
    Mr. Loew, do you know?
    Mr. Loew. No, sir, I can't tell you the total amount spent 
to date. We will answer that for the record.
    [The information follows:]

    To date, the Corps has expended $1.474 billion for the Everglades. 
This includes all projects in the South Florida Ecosystem Restoration 
(Central & Southern Florida, Kissimmee, Everglades & South Florida, and 
Modified Water Deliveries to Everglades National Park). The amount 
included for the Modified Waters project is limited to funds expended 
that were appropriated to the Corps of Engineers and does not include 
funds provided through appropriations for the Department of the 
Interior.

    Mr. Salt. I will tell you that the State has spent maybe 
four times as much as the Federal Government. So part of the 
issue is the Federal investment catching up with the 
significant land investments that the State has made for these 
projects.
    Mr. Frelinghuysen. And I just want to get some 
clarification, if I could.
    Mr. Alexander asked about the certification issue. We 
have--you have responsibilities for some of those levees. And 
then, just so I understand it, there are other levees that have 
been brought up to, quote, ``standards,'' which I assume is 
Category 3. This is what we are talking about here, hurricane 
standards?
    General Temple. The various levees were built to a 
multitude of different standards over time. So if there is a 
record, and there are records for the ones that we built, it 
will state to what standard it was built. Obviously, some were 
built long before the hurricane standards that you have 
described even came into being.
    Mr. Frelinghuysen. So the answer to my question on the 
certification issue?
    General Temple. Levees are certified in order to meet flood 
insurance requirements that Congressman Alexander mentioned 
earlier. The Corps does not perform certification for that 
purpose. We do an assessment of levees to determine whether 
they meet the standards to which they were originally designed, 
and so there is the difference between us making an assessment 
of a levee from a technical perspective and certification for 
flood insurance purposes.
    Mr. Frelinghuysen. You have turned some of those levees 
over, is that right, to other stakeholders?
    General Temple. That is true, sir.
    Mr. Frelinghuysen. Just as a lay person--obviously, Mr. 
Alexander is intimately familiar--there is a public perception 
that we are responsible for everything down there--you know, 
the Army Corps is--but in reality, you are saying that our 
portion of responsibility is somewhat limited by what you have 
described?
    General Temple. Yes, sir. If it is a technical assessment 
of a levee, we provide support to local sponsors if they are 
responsible for that levee to make that assessment. If it is a 
certification for flood insurance purposes, it is under FEMA's 
lead and that addresses the 100-year or 1 percent frequency of 
storms.
    Mr. Frelinghuysen. Last year the committee received 
testimony--thank you for your response--that the Corps was 
developing economic models to better determine the economic 
benefits and rate of return on your O&M projects. At that time, 
these models were predicted to be available in the next 2 
years, and they would be used to rank projects for budgeting 
purposes, but until such time, the Corps projects would be 
ranked according to ton-miles, gross tonnage and system ton-
miles.
    Where do we stand on these models and what would we 
anticipate, or are they still under development?
    Mr. Loew. Yes, sir, we are still working on the navigation 
models. We are probably a year and a half to 2 years away from 
having useful models. In the meantime, we are using primarily 
the benefits of the major ports.
    Mr. Frelinghuysen. In other words, we are using the same 
historical economic models we had been using?
    Mr. Loew. That is correct, yes, sir.
    Mr. Frelinghuysen. So there hasn't been any change from 
that?
    Mr. Loew. Not yet, no, sir.
    Mr. Frelinghuysen. Where do those models fit into sort of 
the standing request of our committee for what we call our 5-
year plans. Where are the Corps--where is the Corps in the 
development of its meeting its obligation to this committee?
    Mr. Loew. Sir, we do produce a 5-year plan. And it is our 
goal, and actually a requirement of this committee, that we 
deliver it to the committee with the budget. Because the budget 
is late this year, the 5-year plan will be late also.
    Where we fall a little short in the 5-year plan is 
providing that total requirement that it would take to do 
everything that is backlogged over the next 5 years. Typically, 
our 5-year plan is more constrained by the budget itself.
    Mr. Frelinghuysen. So it is the backlog of authorized and 
ongoing construction work and a lot of other things?
    Mr. Loew. Yes, sir. We list that work, but we don't 
necessarily show all of it in the 5-year plan, only what we are 
able to budget for.
    Mr. Frelinghuysen. Could you comment, Mr. Secretary, or 
maybe Mr. Loew, after the budget justifications arrive, will we 
see any projects submitted that have remaining contract 
requirements which will require budgetary resources for 
termination?
    Mr. Loew. Sir, I think we cannot answer that question yet, 
until the final budget decisions are made.
    Mr. Frelinghuysen. I think that tells us right off.
    Thank you, Mr. Chairman.
    Mr. Visclosky. No, I am not cutting you off. Would you 
yield.
    Mr. Frelinghuysen. I would be happy to.
    Mr. Visclosky. Can I ask a general question?
    Hypothetically, we see the budget and there is an item of 
termination. What goes into the termination cost? And, again, I 
assume each project is unique, but what are kind of the basic 
elements as far as termination cost?
    Mr. Loew. Sir, I will answer that because it is a 
complicated question.
    It does not apply to most of the work we do. Most of the 
work we do is fully funded with the contracts awarded. It does 
apply to that portion of the work that is funded through 
continuing contracts. And so if we have a continuing contract 
that requires funding in future years to complete it and we 
don't receive that funding, then we would have to terminate 
that contract.
    The termination cost would be the cost for the contractor 
to demobilize and for us to put the project in a safe 
condition.
    I think--this year I would be hopeful, with a combination 
of Recovery Act funding and budgeted programs, that we would 
not have to terminate any of our ongoing work.
    Mr. Visclosky. And if that occurs, we certainly reserve the 
right, and anybody else on the subcommittee, to come back and 
have a conversation. The concern I think we would have is, if 
termination costs are lower, but not significantly lower than 
completion costs, we would want to talk about the logic of that 
decision.
    Mr. Loew. Yes, sir, we certainly agree with that. And even 
beyond that, we view a responsibility to contractors as a very 
important matter. And so we would seek to avoid that at all 
costs.
    Mr. Salt. Sir, could I?
    Mr. Frelinghuysen. Please do.
    Mr. Salt. Back on the 5-year plan--it is essentially our 
goal, my goal, to take into account several of the questions 
the Chairman asked earlier about our future policy, 
opportunities for policy change, to try and figure out a way to 
bring some of those policy initiatives into our 5-year plan 
process, so that it is not just an assumption of our existing 
policies and what the backlogs and all are, but rather what 
would be the projection, particularly if we were considering 
some of these new policies.
    Mr. Visclosky. Mr. Alexander?
    Mr. Alexander. No questions.
    Mr. Visclosky. I have a couple of more questions related to 
the Great Lakes and Great Lakes projects. And, gentlemen, I 
think you have on the table in front of you a chart that the 
staff has prepared, looking at the backlog for the Great Lakes.
    It would appear that the Corps has dredged at less than the 
break-even line for virtually every year except 2008 in the 
last decade. Could you explain the rationale as to how that 
occurred?
    Why does Mr. Loew have to answer?
    General Van Antwerp. I will take the first stab at it.
    One of the real challenges with the Great Lakes is their 
ability to compete on ton-miles and other, what I would say, 
perhaps, are old factors that we need to look at.
    The Great Lakes, of course, as you know, is a system; and 
so, you have to work it as a system. I think we have done that, 
at least last year, where we really started to look at what was 
coming out of one place and what the depths need to be in all 
of the ports.
    But this chart is truthful; it is produced by the Great 
Lakes and Ohio River Division, and it shows how woefully 
inadequate the dredging has been to maintain what is the 
maintenance line along there.
    They do have a plan. The heavy bar there is the long-range 
plan to get healthy and address this backlog.
    Mr. Visclosky. For comparison's sake, if you looked at 
other systems in other regions, would their chart look about 
the same where they would have hit break-even occasionally 
during a 25-year period of time?
    General Van Antwerp. I think what Mr. Loew mentioned 
earlier that 700 of the 900 ports do not meet their dredging 
standards is indicative that there would be other places with 
charts similar to this. In some of the places, we get to them 
less frequently; so at a point in time we get to the prescribed 
and authorized depth, and then there is a period of time that 
we don't get back to that area. So it all depends on the 
funding and the dredging funding.
    I would say there are probably other places that have 
charts similar to this, although I feel in the Great Lakes, 
probably--this is probably a greater issue.
    Mr. Visclosky. I would concur, General. In an Army Corps 
document from 2008, it describes the Great Lakes as having a 
dredging backlog that has, to quote, ``grown to an 
unprecedented level in major navigation channels and harbors.''
    Is it your anticipation that in the 2010 bill-2011 bill 
that we are going to be above break-even and start catching up 
here with the Great Lakes? Mr. Loew?
    Mr. Loew. No, sir, that is not likely. We were able to 
actually break even in the Great Lakes in fiscal year 2009. 
With a combination of the 2009 Appropriation and the Recovery 
Act funding, we are basically doing all the dredging in that 
system that the commercial dredging capability can manage. So 
it would be nice if we could maintain that in future years.
    We have been sort of negative in our testimony today about 
the amount of dredging that we are not doing. I think it is 
also helpful to point out that when we decide what to dredge, 
we look primarily at the commercial benefits of the various 
harbors. And for the harbors that provide 90 percent of all the 
commercial benefits in the United States, we do maintain them 
at an authorized depth, though not necessarily an authorized 
width.
    We are maintaining the very high-use, high-commercial-value 
projects, but there are a lot of medium- and low-use harbors 
similar to the situation you see here that will not get all 
that they need.
    Mr. Visclosky. I would point out that you were both break-
even in 2008, as well, so that would be 2 years. The 2008 
figure is primarily because the subcommittee added money.
    Mr. Loew. Yes, sir.
    Mr. Visclosky. The General alluded there is a plan, but to 
be very frank, I don't see the plan as far as dollars.
    Mr. Loew, you mentioned the Recovery Act and the fact that 
at least we are at break-even for 2009 given a combination of 
funds we were at in 2008. But it is also my understanding that 
the Great Lakes region, encompassing eight States, received 
only 2 percent of the $4.6 billion in civil works funding.
    Do you believe that is a fair characterization?
    Mr. Loew. Yes, sir.
    Mr. Visclosky. When we think about geographic diversity and 
filling in the holes and getting back to even 2 percent for an 
entire region for the stimulus, where you have auto--I won't 
even mention steel here--and heavy manufacturing, that region, 
those States--States like Ohio and Michigan and Pennsylvania 
and New York, Illinois has two Ford plants across my borders, 
Indiana, and they got 2 percent of $4.6 billion. I think that 
is woefully inadequate and, I think, a mistake in judgment, 
myself.
    I have a last question here. The Soo Locks is an important 
element of the Marine transportation system in the Great Lakes 
and is of interest to many in the region, including myself. As 
you know, the project is authorized at full Federal expense due 
to the difficulties of allocating the non-Federal cost share to 
the beneficiaries, and that authorization was not my doing. Is 
it Corps policy to not fund projects that are authorized at 
full Federal expense?
    Mr. Salt. No, sir.
    Mr. Visclosky. Okay. For a project that is authorized at 
full Federal expense, does it compete for funding on a level 
playing field where other projects have local cost share?
    Mr. Salt. I would say yes, sir. The Executive Branch often 
has a policy to fund projects, to give priority to certain 
projects. But in the case of the stimulus, I think Soo Locks 
was one of the projects on the list. And it is their project 
obviously, but there were others that had better, long-term 
economic benefits, and that is the way we did the selection.
    Mr. Alexander.
    Mr. Alexander. You brought up a point that caused me to ask 
a question. You were talking about, Mr. Loew, the formula that 
you used to determine how much dredging is done at a port. You 
were talking about the economy, 90 percent. Do you look at what 
its worth to the area surrounding the port? In other words, 
$1,000 to me is a lot of money. Somebody like Mr. Frelinghuysen 
that is just pocket change. He acknowledged that.
    Mr. Frelinghuysen. This is the Rodney Caucus.
    Mr. Alexander. Rodneys, we are the only ones left, except 
the chairman.
    The question is, in other words, a little isolated port up 
in north Louisiana on the Mississippi River that has a 
population of 4,000, that port is the only thing they have, so 
is that part of the equation that determines how much that port 
is worth as far as dredging is concerned; is that part of the 
equation or is the economy nationwide the only thing that you 
look at? Do you understand what I am asking?
    Mr. Loew. Yes, sir, I think I do. Again, generally we have 
limited funds available to dredge the Federal channels that 
service our ports. And so an initial distribution decision is 
made based on the economic return from all of the dredging. We 
certainly wouldn't want to be leaving a major port that has 
many, many ships coming in undredged. That is just too 
important. So we do work our way down through the list based on 
the commercial value of the port or the amount of commerce in 
the port. But we do look at other things. For instance, for 
some commercial fisheries ports, even though they are small, it 
is important to the industry. Again harbors of refuge are 
important, making sure that the Coast Guard has adequate 
stations is important. But after we have done that, basically 
we will have about 750 to 800 million available for coastal 
harbors. And when we are out of funds, we are out of funds. So 
certainly not every port is able to get all that it needs.
    Mr. Alexander. Thank you.
    Mr. Visclosky.
    Mr. Frelinghuysen. Before you leave Dodge City, I just want 
to ask a question, we talked about economic models, and we 
talked about backlogs and 5-year plans. We have seen some 
pretty catastrophic weather conditions. Obviously Katrina, we 
have seen severe drought, I mean we have seen extremes, and I 
don't think it is accentuated just because we are, quote, 
getting older. I just wonder what you are doing both on the 
civilian and military side of the court, to take a look at out-
of-the-box things. I don't want to have the drum beat for 
climate change here, but what are you doing to sort of take an 
assessment tying in? Last year I was ranking on Commerce, 
Justice and Science Committee worked pretty closely with NOAA 
and NASA and NIST, and I just sort of wondered what are you 
doing to sort of look outside of the box in terms of the real 
probabilities here that you may be confronted with some hellish 
situations here that are way beyond our wildest dreams, so to 
speak.
    Mr. Salt. Let me start and then I will let the Chief and 
General Temple answer as well. You are asking a really big 
question, which has to do with how do we adapt to the big 
changes that are going on, whether it is climate change related 
or whether there are other demographic or growth or other kinds 
of changes that we need to account for. I think going back to 
the Chairman's question you looking at your existing budget 
policies in light of some of these factors. And I think those 
are the overarching kinds of questions we are trying to 
understand as we put together and come up with appropriate 
policies for our budgets, and for our future authorizations.
    And I would certainly say for climate change, for the 
energy and hydropower, these are all matters that are 
priorities to try and get a better, smarter handle on our 
budget policy.
    I will let the Chief and General Temple add anything.
    Mr. Frelinghuysen. General Temple.
    General Temple. Yes, sir. Recently we were involved in a 
multi-government agency study.
    Mr. Frelinghuysen. Like a TOPOFF or----
    General Temple. No, actually it was a study of climate 
change and its impacts on the various functions of government, 
and it was published by the Commerce Department pertaining to 
climate change. Also our Engineering Research and Development 
Center is performing modeling and other studies pertaining to 
climate change, and last but not least, going back to the 
marine transportation systems, not only are we involved in the 
intermodal business but working through the impacts on climate 
change on our commercial transportation systems as well, very 
closely with NOAA.
    Mr. Salt. Could I just add----
    Mr. Frelinghuysen. Mr. Salt.
    Mr. Salt. To pick up on your comment, sir, you have to 
wonder, we have had floods of record in the last 10 years, like 
four of them in the North Dakota, Minnesota area. We are having 
all kinds of different hydrologic snowmelt changes up in the 
Pacific Northwest. So it is not just hurricanes and those kind 
of events, but we are seeing events of record, droughts, floods 
all over. And I think we are looking forward with the fiscal 
year 2010 budget to being able to actually move from theory 
into some applications, some pilots, if you will, to start 
advancing in a more aggressive way how we adapt to the issues 
that you pointed out.
    Mr. Frelinghuysen. For the record, are you budgeting some 
of this?
    Mr. Salt. Yes, sir.
    Mr. Frelinghuysen. Mr. Van----
    General Van Antwerp. There is a consortium with USGS in the 
lead, and NOAA and Reclamation and the Corps of Engineers, to 
come up with adaptation strategies for the future for our 
projects, our coastlines, our most vulnerable areas, and the 
USGS circular 1331, was published on 2nd February this year. It 
was the culmination of at least a year's work to really look at 
strategy. So now we will be looking at the strategy as projects 
are done on a coastline, if it is a beach project or whatever, 
because it helped lay out the future affects of what we are 
going to deal with, whether it be sea level rise or climate 
change or other factors.
    So it was a pretty exhaustive study to take a look at 
adaption strategies in the future.
    Mr. Frelinghuysen. Which I assume includes the ability to 
communicate instantaneously, having systems that are well 
protected and hardened so you can communicate instantaneously.
    General Van Antwerp. Right.
    General Temple. Risk communication was an aspect of that 
publication.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Visclosky. Gentlemen, I want to thank you very much. I 
would just point out in closing a couple of things. Mr. Salt, 
you mentioned that the request by the administration was the 
largest ever made on behalf of the Corps to the Congress. And 
you are correct, and I would point out by one measurement great 
strides had been made. The budget's submission for the Corps 
for fiscal year 2009 was $4,741,000,000. As you point out, in 
2010 the request is $5,125,000,000. So it certainly would 
acknowledge that progress. But the point of all of this being 
engaged in this exercise is to look at the problems we need to 
address in this country and to try to solve them. So it tends 
to highlight the negative, all the more reason to work together 
here at the beginning to solve some of these outstanding 
issues.
    And I want to make sure too because I made somewhat light, 
because I referenced our former colleague Mr. Hobson about the 
5-year plan. Dave was right, and I absolutely agree with his 
position. I think Mr. Frelinghuysen supports it, too, so that 
we have a good plan of action. So I don't want people to think 
I was just making light of the 5-year plan earlier.
    And also, would acknowledge, as many of my colleagues have 
in their opening remarks, to find people who do work at the 
Corps both on the military side as well as the civilian side, 
and whether you have risked your lives in defense of this 
country both as a civilian overseas or military personnel or do 
simply do good work every day, I would want you to know that I 
personally recognize that, too, and do appreciate having Stacey 
and would also acknowledge and I think again most people know 
the Clerk of this subcommittee started on this subcommittee as 
a detailee from the Army Corps of Engineers and we don't want 
to let her go. So you have great people and you do a lot of 
good work, but we can all do better. And that is what we are 
here for, and I would hope that you take this hearing as an 
effort to let's work together and make some more progress here.
    And Mr. Salt, if you can make the same progress next year 
in that differential between 2009 and 2010, that would be 
terrific. Are you going to work on that?
    Mr. Salt. Sir, we will work on that.
    Mr. Visclosky. Thank you very much.

    [GRAPHIC] [TIFF OMITTED] T3602A.010
    
    [GRAPHIC] [TIFF OMITTED] T3602A.011
    
    [GRAPHIC] [TIFF OMITTED] T3602A.012
    
    [GRAPHIC] [TIFF OMITTED] T3602A.013
    
    [GRAPHIC] [TIFF OMITTED] T3602A.014
    
    [GRAPHIC] [TIFF OMITTED] T3602A.015
    
    [GRAPHIC] [TIFF OMITTED] T3602A.016
    
    [GRAPHIC] [TIFF OMITTED] T3602A.017
    
    [GRAPHIC] [TIFF OMITTED] T3602A.018
    
    [GRAPHIC] [TIFF OMITTED] T3602A.019
    
    [GRAPHIC] [TIFF OMITTED] T3602A.020
    
    [GRAPHIC] [TIFF OMITTED] T3602A.021
    
    [GRAPHIC] [TIFF OMITTED] T3602A.022
    
    [GRAPHIC] [TIFF OMITTED] T3602A.023
    
    [GRAPHIC] [TIFF OMITTED] T3602A.024
    
    [GRAPHIC] [TIFF OMITTED] T3602A.025
    
    [GRAPHIC] [TIFF OMITTED] T3602A.026
    
    [GRAPHIC] [TIFF OMITTED] T3602A.027
    
    [GRAPHIC] [TIFF OMITTED] T3602A.028
    
    [GRAPHIC] [TIFF OMITTED] T3602A.029
    
    [GRAPHIC] [TIFF OMITTED] T3602A.030
    
    [GRAPHIC] [TIFF OMITTED] T3602A.031
    
    [GRAPHIC] [TIFF OMITTED] T3602A.032
    
    [GRAPHIC] [TIFF OMITTED] T3602A.033
    
    [GRAPHIC] [TIFF OMITTED] T3602A.034
    
    [GRAPHIC] [TIFF OMITTED] T3602A.035
    
    [GRAPHIC] [TIFF OMITTED] T3602A.036
    
    [GRAPHIC] [TIFF OMITTED] T3602A.037
    
    [GRAPHIC] [TIFF OMITTED] T3602A.038
    
    [GRAPHIC] [TIFF OMITTED] T3602A.039
    
    [GRAPHIC] [TIFF OMITTED] T3602A.040
    
    [GRAPHIC] [TIFF OMITTED] T3602A.041
    
    [GRAPHIC] [TIFF OMITTED] T3602A.042
    
    [GRAPHIC] [TIFF OMITTED] T3602A.043
    
    [GRAPHIC] [TIFF OMITTED] T3602A.044
    
    [GRAPHIC] [TIFF OMITTED] T3602A.045
    
    [GRAPHIC] [TIFF OMITTED] T3602A.046
    
    [GRAPHIC] [TIFF OMITTED] T3602A.047
    
    [GRAPHIC] [TIFF OMITTED] T3602A.048
    

</pre></body></html>
